MARK BRNOVICH
Attorney General

Office of the Attorney General
State of Arizona

Kara Karlson.
Assistant Attorney General

February 24, 2020
BY FEDERAL EXPRESS
Scott S. Harris, Clerk
Supreme Court of the United States
One First Street NE
Washington, D.C. 20543
Re: Arizona Libertarian Party v. Hobbs, No. 19-757
Dear Mr. Harris:
I represent the respondent in the above-referenced case. The petition was filed on
December 9, 2019 and the response requested on January 30, 2020. Respondent's brief in
opposition is presently due March 2, 2020.
I write to request a 30-day extension of time to file the brief in opposition. This
would change the response brief deadline to April 1, 2020. This extension is requested
due to a number of pre-existing briefing and argument deadlines in other cases that have
been set for the remaining part of February. Furthermore, my young daughter has been
scheduled to undergo a medical procedure requiring general anesthesia on March 2. This
procedure was scheduled in early December and should not be delayed. I have contacted
opposing counsel and they do not oppose.
A 30-day extension is warranted under these circumstances. Thank you for your
attention to this matter.
Sincerely,
/s/ Kara M Karlson
Kara Karlson
Counsel for Secretary of State Katie
Hobbs
cc: counsel of record for petitioner

RECEIVED
FEB 2 6 2020
2005 N Central Ave, Phoenix, Arizona 85004 — Phone 602.542.1680 -- Fax 60: .542.3646
OFFICE OF THE CLERK
SUPREME COURT, U.S.

